Nos. 19-840 & 19-1019
IN THE

Supreme Court of the United States
STATE OF CALIFORNIA, ET AL., Petitioners,
v.
STATE OF TEXAS, ET AL., Respondents.
STATE OF TEXAS, ET AL., Petitioners,
v.
STATE OF CALIFORNIA, ET AL., Respondents.
On Writs of Certiorari to the United States Court of
Appeals for the Fifth Circuit
CERTIFICATE OF SERVICE
I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3 and 29.5 that I have, this 13th day of May, 2020, served
three copies of the Brief for the National Women’s Law Center, National
Partnership for Women & Families, Black Women’s Health Imperative, American
Medical Women’s Association, and 77 Additional Organizations as Amici Curiae
Supporting Petitioners in No. 19-840 upon each party separately represented in this
proceeding by causing the copies to be deposited with the United States Postal
Service, with first-class postage prepaid, addressed to counsel of record at the
addresses listed below:
Samuel Passchier Siegel
California Department of Justice
1300 I Street
Sacramento, CA 95814
sam.siegel@doj.ca.gov
(916) 210-6269

Counsel of Record for State Petitioners in No. 19-840
Noel J. Francisco
Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Ave., NW, Room 5616
Washington, DC 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217
Counsel of Record for the United States
Kyle Douglas Hawkins
Texas Attorney General’s Office
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
kyle.hawkins@oag.texas.gov
(512) 936-1700
Counsel of Record for State Respondents in No. 19-840
Robert Earl Henneke
Texas Public Policy Foundation
901 Congress Avenue
Austin, TX 78701
rhenneke@texaspolicy.com
(512) 472-2700
Counsel of Record for Neill Hurley and John Nantz
Douglas Neal Letter
219 Cannon House Office Building
Washington, DC 20515-6532
douglas.letter@mail.house.gov
(202) 225-9700
Counsel of Record for the U.S. House of Representatives

2

I further certify that, pursuant to Supreme Court Rule 29.3, I have caused
electronic copies of the petition to be served on the parties at the email addresses
listed above.
I further certify that all persons required to be served have been served.

Jaime A. Santos
GOODWIN PROCTER LLP
1900 N Street, NW
Washington, DC 20036
JSantos@goodwinlaw.com
(202) 346-4000
Counsel of Record for Amici Curiae

May 13, 2020

3

